No. __

IN THE SUPREME COURT OF THE UNITED STATES
POWER ANALYTICS CORPORATION,
Petitioner,
v.
OPERATION TECHNOLOGY, INC., ET AL.,
Respondents.

APPLICATION TO THE HON. CHIEF JUSTICE JOHN G. ROBERTS, JR.
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT

Pursuant to Supreme Court Rules 13.5, 22, and 30, Power Analytics
Corporation respectfully requests a 60-day extension of time, up to and including
August 19, 2019 to file a petition for a writ of certiorari to review the decision of the
United States Court of Appeals for the Federal Circuit dated January 15, 2019 and
its March 21, 2019 denial of Power Analytics Petitioner for Panel Rehearing or
Rehearing En Banc (attached as Exhibits A and B respectively). The jurisdiction of
this court is based on 28 U.S.C. § 1254(1).
1.

Unless an extension is granted, the deadline for filing the petition for

certiorari will be Wednesday, June 19, 2019.

2.

This case involves important questions that go to the heart of the

United States Patent laws: 1) whether the Federal Circuit’s routine issuance of
wholly inconsistent opinions regarding patent eligibility under 35 U.S.C. § 101 has
departed from this Court’s guidance in Alice Corp. v. CLS Bank International, 573
U.S. 208, (2014) in such a way that patentees, judges, and litigants have been
deprived of any guidance regarding what constitutes patent eligible subject matter;
and 2) whether the Federal Circuit’s failure to properly construe claims when
conducting § 101 analyses is inconsistent with this Court’s U.S. v. Adams, 383 U.S.
39, 48-49 (1966) in which the Court held that “[w]hile the claims of a patent limit
the invention, and specifications cannot be utilized to expand the patent monopoly,
it is fundamental that claims are to be construed in the light of the specifications
and both are to be read with a view to ascertaining the invention.”
3.

The patents at issue in this case are directed to systems and methods

used in the operation of complex power systems. Prior to the inventions recited by
the asserted patents, this real-time information was not available to power system
operators, leading to inefficiencies in the operation of these systems.
4.

At the district court, the defendants moved for summary judgment that

the asserted claims were unpatentable pursuant to 35 U.S.C. § 101 in view of this
Court’s opinion in Alice Corp. v. CLS Bank International, 573 U.S. 208, (2014). The
district court granted defendants’ motion in a manner entirely inconsistent with
this Court’s opinions in at least Alice and Diamond v. Diehr, 450 U.S. 175, 187
(1981). Whether the district should have granted judgment at that stage of the

proceedings is, in fact, the major question in the petition for certiorari in HP v.
Berkheimer, 18-415, now being considered by this Court. The Federal Circuit
summarily affirmed the district court’s order pursuant to Fed. Cir. R. 36 ignoring
legal deficiencies in the district court’s analysis.
5.

The district court’s somewhat confusing analysis is a symptom of a

broader problem that has developed due to the Federal Circuit’s unwillingness to
provide consistent guidance regarding the fundamental question of the U.S. patent
system: what is patentable? The Federal Circuit’s issuance of inconsistent guidance
in view of this Court’s Alice opinion, and frequent summary affirmance pursuant
to Fed. Cir. R. 36 of district court orders that deviate from established precedent
have created an impossible environment for inventors, practitioners, and judges
alike who must grapple with these issues.
6.

Congress is now considering this issue in the form of a proposed

bipartisan bicameral bill to amend 35 U.S.C. § 101. See Sens. Tillis and Coons and
Reps. Collins, Johnson, and Stivers Release Draft Bill Text to Reform Section 101
of the Patent Act (available at: https://www.tillis.senate.gov/2019/5/sens-tillisand-coons-and-reps-collins-johnson-and-stivers-release-draft-bill-text-to-reformsection-101-of-the-patent-act) (accessed on June 14, 2019). The Senate Judiciary
Committee’s Subcommittee on Intellectual Property has conducted three hearings
regarding the State of Patent Eligibility in America with the most recent hearing
occurring three days ago on June 11, 2019. See The State of Patent Eligibility in
America:

Part

III

Subcommittee

Hearing

(available

at:

https://www.judiciarv.senate.gov/meetings/the- tate-of-patent-eligibility-inamerica-pa1't-iii) (accessed on June 14, 2019). Congressional action to clarify what
has become the most contentious and uncertain area of the patent laws appears
imminent.
7.

Given the current legislative activity, including the June 11 hearing

days ago, and this Court's recent invitation to the Solicitor General to file a brief
expressing the views of the United States in HP, much-needed fundamental
changes in this area of the law that are directly relevant to petitioner's appeal are
likely to occur.
Accordingly, the petitioner respectfully requests that an extension of time to
and including Monday, August 19, 2019 be granted within which applicant may file
a petition for a writ of certiorari.

Dated: June 14, 2019

Respectfully Submitted,
~~c,.'ll..

Robert F. Ruyak
Counsel of Record
Amadou K. Diaw

RuyakCherian LLP

1700 K Street NW
Suite 810
Washington, DC 20006
(202) 838-1560
robertr@ruyakcherian.com

